HHS/OIG-Audit--"Review of Unfunded Pension Costs of the Traverlers Insurance Company, (A-07-93-00665)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of the Travelers Insurance Company,"
(A-07-93-00665)
October 6, 1993
Complete Text of Report is available in PDF format
(1.34 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Travelers Insurance
Company's (Travelers) unfunded pension costs as of January 1, 1991. Our review
disclosed that Traverlers had accumulated over $1.2 million in pension costs
that are unallowable for Medicare reimbursement. Travelers made contributions
to the pension trust fund from 1986 through 1990, however, during this period,
Travelers did not fully fund the pension costs identifiable with its Medicare
segment. By not fully funding pension costs, Travelers lost allowability of
the costs under Medicare.